         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Fixed Monthly Living Expense
Payments at the Lawrence
Livermore National Laboratory




INS-L-11-05                     September 2011
                                 Department of Energy
                                   Washington, DC 20585
                                      September 21, 2011



MEMORANDUM FOR MANAGER, LIVERMORE SITE OFFICE

FROM:                    Sandra D. Bruce
                         Assistant Inspector General
                           for Inspections
SUBJECT:                INFORMATION: Inspection Report on "Fixed Monthly Living Expense
                        Payments at the Lawrence Livermore National Laboratory"

BACKGROUND

The Lawrence Livermore National Laboratory (Livermore) is a Department of Energy
(Department) laboratory managed and operated by Lawrence Livermore National Security, LLC,
for the Department's National Nuclear Security Administration (NNSA). Livermore's mission is
to ensure the safety and security of the nation through applied science and technology in key
areas of nuclear security, international and domestic security, and energy and environmental
security. In certain circumstances, Livermore utilizes subcontractors to obtain specialized skill
sets that are not available locally. To minimize travel expenses, some subcontractors receive
fixed monthly living expenses (FMLE), which are negotiated travel reimbursements that provide
a fixed monthly payment to cover specified travel expenses. FMLE is also designed to reduce
subcontract travel costs by encouraging the subcontractor to obtain long-term, lower cost
housing arrangements.

The Office of Inspector General (OIG), Office of Investigations, received a complaint which
alleged improper payment of FMLE to certain Livermore subcontractor employees. A
subsequent investigation determined that a Livermore subcontractor authorized FMLE payments
in the amount of $181,666 to subcontract employees who claimed and received payments to
which they were not entitled. Livermore was able to recover the funds because the subcontractor
violated a contract clause which required it to substantiate the eligibility of the lower-tier
subcontractor for reimbursements under FMLE. The Office of Investigations subsequently
learned that Livermore had other subcontracts with FMLE provisions.

We initiated this review to determine if Livermore had taken action to address FMLE issues
identified during the previous investigation and had addressed similar issues that may have
existed with other subcontracts.

CONCLUSIONS AND OBSERVATIONS

We found that Livermore had taken actions to address FMLE issues as a result of the
investigation. Specifically, Livermore established policies and procedures for the management
and administration of the FMLE process. In addition, Livermore reviewed all subcontracts with
FMLE provisions but did not identify any other subcontract employees who claimed and
received payments to which they were not entitled.

                                FMLE Policies and Procedures

We determined that Livermore established policies and procedures for the management and
administration of the FMLE process. Prior to the OIG investigation, Livermore did not have
formal written policies or procedures specifically relating to FMLE. However, in March 2010,
Livermore issued Procurement Standard Practice 31.4, Long-Term Travel Costs, which describes
the allowability of subcontractor long-term travel costs, including FMLE. The policy states that
to be eligible for FMLE, a subcontractor employee must maintain duplicate housing costs while
the employee is on long-term travel. In addition, the subcontractor employee's travel must be in
excess of 50 miles from the employee's residence.

We also determined that Livermore established an FMLE contract clause that is applicable to all
subcontractors. This clause states the terms and conditions of eligibility for FMLE
reimbursement, including trips home, and other reimbursable incidentals associated with FMLE
work. The clause also provides for subcontractor certification to the FMLE agreement.
Specifically, by signing the subcontract, the subcontractor is certifying compliance with the
FMLE terms and conditions. In addition, Livermore provided a desk guide to supplement the
requirements of Livermore Procurement Standard Practice 31.4 and to assist the contract
administrator in determining the appropriateness of FMLE payments.

                                Review of FMLE Subcontracts

Our inspection revealed that, in response to the investigation, Livermore reviewed all
subcontracts with FMLE provisions, but did not identify any other subcontract employees who
claimed and received FMLE payments to which they were not entitled. Livermore did determine
that the continuation of two subcontracts would be in violation of the new Procurement Standard
Practice 31.4. This Standard allows for FMLE to be paid to a subcontractor employee on
extended travel ranging from 30 days to 12 months, or to a subcontractor employee on a change
of station from 12 to 36 months. At the time the provisions were implemented, Livermore had
two subcontracts in place that would have required payments beyond the allowable time periods,
thus requiring Livermore to seek an exemption from Procurement Standard Practice 31.4 for
those individuals. The exemption was subsequently approved by the NNSA's Livermore Site
Office.

SUGGESTED ACTION

Considering the previous problems with FMLE at Livermore, we suggest that the Manager,
Livermore Site Office, periodically assess the FMLE program to ensure that current Livermore
internal policies remain in place to prevent inappropriate FMLE payments.

Since we are not making any recommendations in this report, a response is not required.




                                               2
We appreciate the cooperation received from your staff during our inspection. If you have any
questions concerning this inspection, please contact Mr. Richard W. Curran, Director, Western
Inspection Region, Office of Inspections, at (505) 845-5153.

Attachment

cc:   Administrator, National Nuclear Security Administration
      Deputy Secretary
      Associate Deputy Secretary
      Chief of Staff




                                               3
                                                                                     Attachment

SCOPE AND METHODOLOGY

We initiated our review as a follow-up inspection and focused on Livermore's administrative
actions regarding FMLE issues as a result of the Office of Inspector General investigation.

This inspection was performed between July 2011 and August 2011 at the Lawrence Livermore
National Laboratory. To accomplish the objective of the inspection, we:

       Reviewed applicable site policies and procedures.

       Interviewed key personnel at Livermore regarding FMLE policies and procedures.

This inspection was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency Quality Standards for Inspection and Evaluation, issued January 2011.
Those standards require that we plan and perform the inspection to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions and observations based on our
inspection objective. We believe the evidence obtained provides a reasonable basis for our
conclusions and observations based on our inspection objective. The inspection included tests of
controls and compliance with laws and regulations to the extent necessary to satisfy the
inspection objective. Because our review was limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed at the time of our inspection.




                                               4
                                                                     IG Report No. INS-L-11-05

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?


3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?


4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?


5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
